    Office of Inspector General
         Audit Report


FAA MADE LIMITED PROGRESS IN IMPLEMENTING
      NEXTGEN PROVISIONS OF THE FAA
  MODERNIZATION AND REFORM ACT OF 2012
          Federal Aviation Administration

           Report Number: AV-2014-027
           Date Issued: January 28, 2014
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Made Limited Progress in                                      Date:    January 28, 2014
           Implementing NextGen Provisions of the FAA
           Modernization and Reform Act of 2012
           Federal Aviation Administration
           Report No. AV-2014-027

  From:    Jeffrey B. Guzzetti                                                    Reply to
                                                                                  Attn. of:   JA-10
           Assistant Inspector General
              for Aviation Audits

    To:    Federal Aviation Administrator

           The Next Generation Air Transportation System (NextGen) is a critical
           infrastructure project that will transform the Nation’s air traffic management from
           ground-based radar to a satellite-based system with the goals of improving safety,
           meeting the expected demands for increased capacity, and improving efficiency. It
           is also FAA’s most complex modernization effort to date and will require
           multibillion-dollar investments from both the Federal Government and airspace
           users to successfully implement. However, since its inception a decade ago,
           FAA’s progress in implementing NextGen has not met the expectations of
           Congress and industry stakeholders, and key modernization efforts have
           experienced significant cost increases and schedule delays.

           On February 14, 2012, the FAA Modernization and Reform Act of 2012 (the act)
           was signed into law. 1 Title II of the act included several provisions intended to
           help FAA better manage NextGen, provide more accountability, and advance the
           implementation of new air traffic procedures and technologies. However, there
           were concerns with FAA’s ability to meet these goals after a September 2012
           House Aviation Subcommittee hearing highlighted significant cost overruns and
           program delays with key NextGen initiatives and modernization projects. 2

           Following the hearing, the leadership of the House Committee on Transportation
           and Infrastructure and its Subcommittee on Aviation requested that we assess
           1
            Public Law 112-95, signed into law on Feb. 14, 2012.
           2
            “A Review of and Update on the Management of FAA’s NextGen Program,” House Subcommittee on Aviation,
           Sept. 12, 2012.
                                                                                                                     2


FAA’s progress in implementing the act’s NextGen-related requirements.
Accordingly, our objectives were to (1) assess FAA’s progress in meeting the
NextGen provisions prescribed in the FAA Modernization and Reform Act of
2012 and (2) identify the challenges that may prevent FAA from meeting the
provisions of the act. On September 17, 2013, we provided a letter 3 to the
Chairman of the House Transportation and Infrastructure Committee and the
Chairman and Ranking Member of the House Aviation Subcommittee that
summarized FAA’s actions to address Title II requirements. We also explained
several ongoing challenges that may hinder the Agency’s ability to fully address
the act’s provisions. This report provides the full results of our review.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology, and
exhibit B lists the organizations we visited or contacted.

RESULTS IN BRIEF
As of August 2013, FAA implemented or is on target to implement 11 of the
24 NextGen provisions that we identified in Title II of the act, including
appointing a Chief NextGen Officer and completing a multi-agency NextGen
Integrated Work Plan. However, FAA has not implemented other key provisions
intended to accelerate NextGen technologies, such as initiating rulemaking
activities requiring use of the Automated Dependent Surveillance-Broadcast
(ADS-B) In system 4 for enhanced satellite-based air traffic surveillance.
Moreover, FAA is behind schedule on many of the act’s deadlines for reports and
plans related to determining NextGen progress, such as reports explaining the
requirements for using performance-based navigation 5 at the Nation’s airports.

FAA’s difficulties in meeting the act’s provisions stem from longstanding
programmatic and organizational challenges, including the technical complexity of
NextGen initiatives; the collaboration required with other Government and
aviation stakeholders to complete the initiatives; and financial concerns, such as
meeting the provisions of the Budget Control Act of 2011. 6 Given the importance
and complexity of the act’s provisions in advancing NextGen technologies and

3
  Letter Regarding FAA’s Process in Meeting NextGen Provisions of the FAA Modernization and Reform Act (OIG
Correspondence No. CC-2012-003), Sept. 17, 2013. OIG reports and correspondence are available on our Web site at
http://www.oig.dot.gov/.
4
  ADS-B In technology provides pilots with information transmitted from ADS-B ground stations as well as other
aircraft. If an operator chooses to equip an aircraft with ADS-B In avionics, a compatible display is also necessary to
view the information.
5
  Performance-based navigation delivers new routes and procedures that primarily use satellite-based navigation and
on-board aircraft equipment to navigate with greater precision and accuracy and can provide benefits through all phases
of flight. It provides a basis for designing and implementing automated flight paths, airspace redesign, and obstacle
clearance.
6
  Public Law 112-25, signed into law on Aug. 2, 2011.
                                                                                                              3


that FAA implemented less than half of them, keeping decisionmakers and
stakeholders informed of the Agency’s progress is key. However, FAA has not
developed a process to regularly update stakeholders on its status in meeting the
act’s provisions, including setting priorities and revised target action dates for
missed deadlines.

We are making recommendations to FAA to better assist the Agency in meeting
the act’s Title II provisions and keeping stakeholders informed of progress.

BACKGROUND
The United States air transportation system serves approximately 730 million
passengers each year and nearly 70,000 flights occur each day in U.S. airspace.
FAA expects significant increases in commercial and general aviation activity
over the next decade that will result in 1 billion passengers traveling per year and
more than 79,000 flights per day by 2025. A critical component that will enable
FAA to successfully manage this projected surge in air traffic is the advancement
and implementation of NextGen technologies.

FAA spends nearly $1 billion annually on NextGen efforts. We have reported on
cost and schedule risks with NextGen programs as well as challenges that FAA
must address to successfully transition from the legacy air traffic systems to
NextGen since the program began in 2004. For example, we testified in July 2009 7
that organizational barriers and fragmented initiatives hindered FAA’s process for
approving new flight procedures. During a September 2012 hearing, 8 we reiterated
similar concerns regarding FAA’s ability to implement NextGen capabilities that
could result in delayed benefits. Moreover, our prior work on NextGen programs
indicates that the Agency has had difficulties coordinating those efforts.

FAA IMPLEMENTED LESS THAN HALF OF THE ACT’S NEXTGEN
PROVISIONS, INCLUDING TWO KEY PROVISIONS INTENDED TO
ADVANCE NEXTGEN
FAA is taking action to implement the act’s NextGen provisions but has not
implemented provisions that are key to achieving the system’s full benefits. (See
exhibit C for a description of the provisions and their implementation status.) As
of August 2013, FAA implemented or is on target to implement 11 of the
24 NextGen provisions of the act. Of significant importance are FAA’s actions to


7
  Challenges in Implementing Performance-Based Navigation in the U.S. Air Transportation System, (OIG Testimony
Number CC-2009-086), July 29, 2009.
8
  Update on FAA’s Progress and Challenges in Advancing the Next Generation Air Transportation System, (OIG
Testimony Number CC-2012-027), Sept. 12, 2012.
                                                                                 4


address three key provisions intended to provide more accountability and advance
new air traffic procedures and technologies:

• In June 2013, FAA filled a key leadership position by appointing a Deputy
  Administrator who will also serve as the Chief NextGen Officer. The Deputy
  Administrator will oversee the Agency’s NextGen modernization efforts,
  including coordinating budgets and planning across the Agency’s lines of
  business and with partner agencies.
• In October 2012, the Agency completed a multi-agency NextGen Integrated
  Work Plan that includes the responsibilities of partner agencies, such as the
  Department of Defense and the National Aeronautics and Space
  Administration, to carry out NextGen-related research activities.

• In May 2012, FAA established a program that uses third parties to develop and
  test advanced navigation procedures at five mid-size airports.

Despite FAA’s progress, the Agency and the Department have not implemented
two key provisions of the act that are intended to accelerate technologies and
achieve the full range of NextGen benefits. Specifically:

• FAA has not initiated rulemaking activities to issue guidelines and regulations
  on ADS-B In technology, and

• The Department has not established a public-private incentive program for
  installing NextGen avionics equipment on aircraft.

In addition, FAA is behind schedule on meeting many of the act’s established
deadlines. In particular, FAA did not meet the deadlines for multiple reports and
plans related to determining the Agency’s progress in implementing NextGen. For
example, while FAA completed the NextGen Integrated Work Plan, it did not
meet another provision’s deadline for reporting on its status in carrying out the
plan. In addition, the Agency is still working to develop reports that will explain
the requirements needed to begin using performance-based navigation at the
Nation’s airports.

FAA’S DIFFICULTIES IN MEETING THE PROVISIONS OF THE
ACT STEM FROM PROGRAMMATIC AND ORGANIZATIONAL
CHALLENGES
FAA faces a number of programmatic and organizational challenges in its efforts
to fulfill the act’s NextGen requirements. According to FAA officials, the act’s
provisions are difficult to execute as they require coordination among multiple
programs, resolution of complex technical and operational issues, and
                                                                                                                     5


collaboration with industry stakeholders. For example, FAA’s delays with issuing
guidelines and regulations for ADS-B In are due, in part, to the need to finalize
requirements for displaying traffic information in aircraft cockpits, modify the
systems that controllers rely on to manage traffic, develop and deploy new
procedures for separating aircraft using satellite-based technology, and assess
potential system security vulnerabilities. As a result, FAA will not likely be ready
to mandate the use of the technology by 2020, as required by the act. Moreover, as
we reported last year, users are concerned about investing in aircraft avionics for
ADS-B and other NextGen initiatives because FAA has not clearly defined what
benefits will be achieved and when. 9

In addition, in order to successfully implement some provisions, the Agency will
need to work across multiple lines of business and with other Federal agencies or
organizations. FAA officials told us that this coordination is time-consuming and
limits the Agency’s ability to meet the act’s deadlines. To illustrate this point,
FAA is working with the NextGen Advisory Committee (NAC), 10 an aviation
stakeholder group, to fulfill the act’s requirements for developing performance
metrics. While FAA and the NAC were able to agree on certain metrics, there was
considerable debate within the NAC regarding the use of other metrics. For
example, some NAC members were concerned about publicizing aircraft fuel burn
rates because it could provide competitors with proprietary information such as
flight routes and aircraft types. As a result, this metric remains undeveloped. The
NAC is currently working with industry stakeholders on a process to obtain actual
fuel burn data to meet the act’s requirements.

FAA officials also noted that budgetary issues, including the provisions of the
Budget Control Act of 2011, 11 have impacted its NextGen and modernization
efforts, including its ability to conduct activities related to the act’s provisions. For
example, FAA intended to publish its NextGen Implementation Plan 12 in March
2013. However, according to Agency officials, it did not publish the Plan until
June 2013 due to the impacts of sequestration.

Finally, given the importance and complexity of the act’s provisions in advancing
NextGen technologies and FAA’s limited implementation thus far, keeping
decisionmakers and stakeholders informed of the Agency’s progress is key.

9
  Status of Transformational Programs and Risks to Achieving NextGen Goals (OIG Report No. AV-2012-094),
April 23, 2012.
10
   The NAC is a Federal advisory committee that will develop recommendations for NextGen portfolios with an
emphasis on the mid-term (through 2018). The NAC includes representation from affected user groups, including
operators, manufacturers, air traffic management, aviation safety, airports, and environmental experts.
11
   The law required FAA to reduce its remaining fiscal year 2013 budget by $637 million dollars, and the reduction will
likely result in cost and schedule baseline adjustments for individual NextGen and other modernization programs.
12
   The NextGen Implementation Plan is an annual plan that sets out FAA’s vision for NextGen, now and into the mid-
term, and identifies the Agency’s goals for technology and program development and its commitments in support of
that vision.
                                                                                                                        6


However, FAA has not developed a process to regularly update decisionmakers
and stakeholders on its status in meeting the act’s provisions, including setting
priorities and revised target action dates for missed deadlines. Communicating
these plans to Congress and other stakeholders would position the Agency to
identify the likelihood and impact of future delays in completing the NextGen
system.

CONCLUSION
NextGen is a complex undertaking that is essential for fundamentally changing the
way air traffic is managed in order to meet the future needs of air travel. Unless
FAA places greater management attention on its efforts to implement the act’s
provisions, it is unlikely that the Agency will realize enhanced program oversight
and accountability or the benefits of advanced technologies and navigation
procedures. We will continue to monitor FAA’s NextGen efforts and Title II
requirements 13 through our ongoing assignments.

RECOMMENDATIONS
To assist FAA in meeting the Title II provisions of the act, we recommend that
FAA:

1. Implement a process for regularly updating stakeholders on its progress in
   meeting the act’s NextGen provisions, to include priorities, revised target
   action dates for missed deadlines, and reasons for delays.

2. Communicate planned actions to Congress and other stakeholders to address
   the challenges the Agency faces in meeting the act’s provisions.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on November 14, 2013, and received its
formal response on December 19, 2013. FAA’s response is included in its entirety
as an appendix to this report. FAA concurred with both of our recommendations
citing multiple outlets, including the NextGen Implementation Plan (NGIP) that
the Agency uses as the basis for Congressional briefings and other outreach efforts
with stakeholders. Since these processes are currently in use, FAA requested that
we close both recommendations.



13
  See exhibit D for a listing of our previous and ongoing work related to the Title II requirements and other NextGen
and modernization programs.
                                                                                   7


We agree that these are appropriate mechanisms for updating stakeholders, but
they are typically broad in laying out a vision for NextGen and providing a status
of NextGen overall. For example, the NGIP provides information on a range of
activities associated with FAA’s progress with NextGen and future plans.
However, the plan does not set priorities, focus on the act’s specific provisions, or
detail the challenges in meeting them. Therefore, it does not provide Congress and
stakeholders with a clear understanding of what can be accomplished and when.
Since FAA has committed in its response to include this information in future
NGIPs and subsequent congressional briefings, we consider these
recommendations resolved but open pending our verification that FAA completes
these planned actions.

ACTIONS REQUIRED
FAA’s planned actions and timeframes for both recommendations are responsive,
and we consider them resolved but open pending completion of the planned
actions.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call
Matthew E. Hampton, Deputy Assistant Inspector General for Aviation Audits, at
(202) 366-1987 or Barry DeWeese, Program Director, at (415) 744-0420.

                                         #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                                                     8



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from March 2013 through November 2013 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To perform our work, we reviewed Title II of the FAA Modernization and Reform
Act of 2012 and identified 24 NextGen provisions contained in the title. We then
interviewed officials from FAA’s Office of Aviation Policy and Plans, Office of
NextGen, Joint Planning and Development Office, and other Air Traffic
Organization groups regarding FAA’s implementation of the 24 provisions. We
also attended industry stakeholder meetings that dealt with several of the act’s
initiatives, and reviewed related documents from FAA and other aviation
stakeholder groups such as the RTCA, Inc. 14

In addition, we talked with a representative from the Department of Defense to
discuss how the military certifies aviation systems in comparison to civil aviation
systems. Finally, we reviewed our previous and ongoing NextGen-related audit
work to identify any related issues.




14
   RTCA, Inc. is a private, not-for-profit corporation that develops consensus-based recommendations regarding
communication, navigation, surveillance, and air traffic management system issues. RTCA functions as a Federal
advisory committee and includes roughly 400 industry and academic organizations from the United States and around
the world. Members represent all facets of aviation, including government organizations, airlines, airspace users,
airport associations, labor unions, aviation services, and equipment suppliers.


Exhibit A. Scope and Methodology
                                                                      9



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

Federal Aviation Administration (FAA) Headquarters
Office of Aviation Policy and Plans                  Washington, DC
Joint Planning and Development Office                Washington, DC
 Office of NextGen                                   Washington, DC
Air Traffic Organization                             Washington, DC


Department of Defense
U.S. Air Force                                       Virginia


RTCA, Inc.                                           Washington, DC




Exhibit B. Organizations Visited or Contacted
                                                                                                                                                                                       10

               EXHIBIT C. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                        (AS OF AUGUST 23, 2013)
Section           Provision                    Description                                                Deadline           Progress   Status


202               NextGen Demonstrations       Provide Facilities & Equipment funding priority to         None                          Met – FAA gives priority in its annual budget request
                  and Concepts                 NextGen activities.                                                                      and acquisition management processes for demonstration
                                                                                                                                        projects and developmental efforts.

204               Chief NextGen Officer        Administrator shall appoint a Chief NextGen Officer.       None                          Met – Michael Whitaker is the FAA Deputy
                                                                                                                                        Administrator and also serves as the Chief NextGen
                                                                                                                                        Officer. Mr. Whitaker was sworn into office on
                                                                                                                                        June 3, 2013.

208(a)(1)         NextGen JPDO Associate       Head of the JPDO to be redesignated as the Associate       None                          Not Fully Implemented – On August 22, 2013, Major
                  Administrator                Administrator for NextGen Planning, Development, and                                     General Edward Bolton (Ret.) was named the Associate
                                               Interagency Coordination.                                                                Administrator for NextGen. However, FAA has not yet
                                                                                                                                        redesignated the Head of the JPDO as the Associate
                                                                                                                                        Administrator.

208(a)(3)(D)      NextGen JPDO                 Execute Memorandums of Understanding (MOU)                 8/14/12                       Met – Even though the MOUs were signed in 2008,
                  (Interagency MOUs)           between DOD, Commerce, Homeland Security, NASA,                                          FAA stated—and we believe—that they meet the intent
                                               and other agencies documenting their responsibilities to                                 of the provision.
                                               carry out the NextGen Integrated Plan.

208(b)(5)         NextGen JPDO                 FAA shall complete a multi-agency integrated NextGen       None                          Met – FAA released the Fiscal Year 2015 Integrated
                  (Integrated Work Plan)       Work Plan that includes accomplishments and future                                       Work Plan on October 1, 2012. However, it does not
                                               costs.                                                                                   include budgetary information as required by the act.


208(c)            NextGen JPDO                 FAA Administrator shall publish and annually update a      2/14/13 &                     Implemented Late – FAA completed the NGIP in
                  (Implementation Plan)        NextGen Implementation Plan (NGIP).                        Annually                      June 2013—4 months after the due date. The NGIP was
                                                                                                                                        originally scheduled for publication a month after the
                                                                                                                                        President’s budget, but according to FAA it was delayed
                                                                                                                                        due to sequestration.

209               NextGen Senior Policy        NextGen Senior Policy Committee meetings twice             Report - 2/14/13              Missed Deadline – According to FAA, the report was
                  Committee                    annually. FAA shall complete a report that includes        & Annually                    cleared by partner agencies but is in administrative
                                               progress made in the NextGen Work Plan, a description      Afterward                     review. Agency expects the report to be published in
                                               of success/failure, an explanation of future changes to                                  next few months.
                                               the Plan and also identify funding.

      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed




Exhibit C. St atus of F AA’ s Implementat ion of the Title II Requirements (as of August 23, 2013)
                                                                                                                                                                                         11

               EXHIBIT C. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                        (AS OF AUGUST 23, 2013)

Section           Initiative                    Description                                                Deadline          Progress   Status

211(b)            ADS-B (Rulemaking)            Initiate rulemaking to issue guidelines and regulations    2/14/13                      Missed Deadline – According to FAA, it is working
                                                related to ADS-B In technology (display of information                                  through an Aviation Rulemaking Committee
                                                in the cockpit).                                                                        recommendation related to this issue, and there is no
                                                                                                                                        specific target date for initiating rulemaking activities.
                                                                                                                                        We note that the technical requirements for ADS-B In
                                                                                                                                        are not mature and continue to evolve. As a result, it is
                                                                                                                                        uncertain when the advanced capabilities of ADS-B can
                                                                                                                                        be implemented and at what cost.

211(c)            ADS-B (Usage)                 FAA, in coordination with employee and industry            8/14/13                      Missed Deadline – According to FAA, the first draft of
                                                groups, shall develop a plan to use ADS-B for active air                                the plan is complete and under internal review.
                                                control and surveillance.

212               Expert Review Enterprise      FAA shall enter into an agreement with the National        2/14/13                      Missed Deadline – FAA signed an agreement with the
                  Architecture for NextGen      Research Council (NRC) to review NextGen Enterprise                                     NRC 7 months after the act became law, and the NRC’s
                                                Architecture and submit a report to the House and Senate                                schedule calls for the report to be completed in
                                                authorizing Committees within 1 year of enactment.                                      March 2014.

213(a)(1)         Acceleration of NextGen       Publish a report that outlines implementation              Report: 8/14/12              Report: Missed Deadline – According to FAA, a single
                  Technologies (OEP             requirements needed to implement RNAV and RNP                                           report for OEP and non-OEP airports is under FAA
                  Airports)                     procedures at Operational Evolution Partnership (OEP)      RNAV/RNP                     executive review.
                                                airports. Certify, publish, and implement RNAV/RNP         Procedure
                                                procedures at OEP airports by June 30, 2015.               Implementation:              Implementation: Not Implemented – FAA is shifting
                                                                                                           30% by 8/14/13;              away from publishing large numbers of routes to
                                                                                                           60% by 2/14/15;              publishing fewer new routes that provide operational
                                                                                                           100% by 6/30/15              benefits. The realization of widespread benefits from the
                                                                                                                                        new procedures depends on FAA’s ability to revamp the
                                                                                                                                        controller handbook and deploy new automated tools for
                                                                                                                                        controllers.



      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed




Exhibit C. St atus of F AA’ s Implementat ion of the Title II Requirements (as of August 23, 2013)
                                                                                                                                                                                         12
              EXHIBIT C. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                       (AS OF AUGUST 23, 2013)


Section            Initiative                   Description                                                Deadline          Progress   Status

213(b)(1)          Acceleration of NextGen      Publish a report that outlines implementation              Report: 8/14/12              Report: Missed Deadline – According to FAA, a single
                   Technologies (Non-OEP        requirements needed to implement RNP procedures at                                      report for OEP and Non-OEP airports is under FAA
                   Airports)                    35 non-OEP airports. Certify, publish, and implement       RNAV/RNP                     executive review.
                                                RNP procedures at non-OEP airports over 4 years, fully     Procedure
                                                implementing them by June 30, 2016.                        Implementation:              Implementation: Not Implemented – FAA is shifting
                                                                                                           25% by 8/14/13;              away from publishing large numbers of routes to
                                                                                                           50% by 2/14/15;              publishing fewer new routes that provide operational
                                                                                                           100% by 6/30/16              benefits. The realization of widespread benefits from the
                                                                                                                                        new procedures depends on FAA’s ability to revamp the
                                                                                                                                        controller handbook and deploy new automated tools for
                                                                                                                                        controllers.

213(d)             Acceleration of NextGen      Submit a plan to the House and Senate authorizing          2/14/13                      Missed Deadline – According to FAA, a draft plan is in
                   Technologies (Data           committees for a nationwide data communications                                         FAA internal coordination.
                   Communications System)       system that includes budget, schedule, and performance
                                                metrics.

213(e)             Acceleration of NextGen      Outline in the NextGen Implementation Plan (1) if          None                         Met – The NGIP, published in June 2013, includes the
                   Technologies (Improved       technology such as ADS-B and RNP will improve                                           required language. While FAA states that it is evaluating
                   Performance Standards)       efficiency, and (2) safely reduce aircraft separation                                   reducing separation standards at congested airports, it is
                                                standards (include a timetable describing reduced                                       uncertain when FAA will widely implement the new
                                                standards in the NGIP).                                                                 standards.

213(f)             Acceleration of NextGen      Establish a program that authorizes the use of qualified   None                         Met – FAA awarded a contract in May 2012 for third-
                   Technologies (Third-Party    third parties in the development, testing, and                                          party development or RNP procedures to five mid-sized
                   Usage)                       maintenance of flight procedures.                                                       airports.

214                Performance Metrics          Establish and track detailed performance metrics at the    8/14/12                      Implemented Late – FAA delivered the metrics report to
                                                35 OEP airports. Submit a report to the House and                                       the House and Senate authorizing Committees on
                                                Senate describing the metrics.                                                          August 9, 2013. It has also published the metrics on its
                                                                                                                                        Web site. However, the Agency has yet to complete
                                                                                                                                        development of metrics measuring airline fuel burn and
                                                                                                                                        the number of operations using advanced navigation
                                                                                                                                        procedures.

215                Certification Standards      Develop a plan to accelerate and streamline the process    8/14/12                      Missed Deadline – According to FAA, the draft plan is
                   and Resources                for certifying NextGen technologies.                                                    being revised based on internal coordination.


      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed


Exhibit C. St atus of F AA’ s Implementat ion of the Title II Requirements (as of August 23, 2013)
                                                                                                                                                                                         13
             EXHIBIT C. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                      (AS OF AUGUST 23, 2013)
Section           Initiative                   Description                                                  Deadline         Progress   Status

216               Surface System               Evaluate and accelerate the ASDE-X program, the              Implementing                Ongoing (ASDE-X) – FAA continues to explore
                  Acceleration                 surveillance system that allows air traffic controllers to   ASDE-X (none)               enhancements to the ASDE-X program as part of its
                                               track aircraft and vehicle surface movement. Develop a                                   NextGen initiatives.
                                               plan to expedite the certification and installation of       GBAS Plan:
                                               Ground-Based Augmentation System (GBAS)                      12/31/12                    Not Implemented (GBAS) – According to FAA, due to
                                               technology at the 35 OEP airports.                                                       issues in Newark, NJ, in 2012, the GBAS system went
                                                                                                                                        back in development for further research. The issues
                                                                                                                                        were resolved, and GBAS has been certified as a non-
                                                                                                                                        Federal acquisition system for airports.

217               Inclusion of Stakeholders    Include qualified employees from each collective             2/14/13                     Missed Deadline – According to FAA, the process for
                  in Air Traffic Control       bargaining unit and report to the House and Senate                                       including employees is in place, but the draft report is
                  Modernization Projects       authorizing committees on this section.                                                  under review.

218               Airspace Redesign            FAA and the Port Authority of NY/NJ/PHL monitor              TBD                         In Progress – The expected NY/NJ/PHL Airspace
                                               noise impacts of area Airspace Redesign. No later than                                   Redesign completion date is December 2016, with the
                                               1 year after completing Redesign, submit a report on                                     report due in December 2017.
                                               noise impacts.

220               NextGen Research and         FAA may enter into an agreement to assist in the             None                        Met – Existing Centers of Excellence are conducting
                  Development Center of        establishment of a Center of Excellence to research                                      research and development.
                  Excellence                   NextGen technology.

221               Public-Private               The DOT Secretary may establish an avionics equipage         None                        In Progress – In 2012, FAA obtained information from
                  Partnerships                 incentive program for general aviation and commercial                                    stakeholders regarding financial incentives for operators
                                               aircraft to install equipment to utilize NextGen                                         to equip with NextGen avionics. FAA continues to seek
                                               capabilities.                                                                            stakeholder input, but the Agency states that it lacks
                                                                                                                                        complete statutory authority to grant a loan guarantee
                                                                                                                                        and that Federal credit laws require agencies to obtain
                                                                                                                                        specific authority to guarantee loans in an appropriation
                                                                                                                                        act.

222               Operational Incentives       FAA shall issue a report that identifies incentive options   8/14/12                     Missed Deadline – According to FAA, the Office of the
                                               to encourage operators to equip aircraft with NextGen                                    Secretary has reviewed the report and final publication
                                               technology.                                                                              by FAA is pending.

225               Greener Skies Project        Report on NextGen capabilities produced by Greener           Initial report              Implemented Late – Initial report was completed in
                                               Skies Project.                                               8/14/12 &                   March 2013—7 months after the due date.
                                                                                                            Annually


      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed



Exhibit C. St atus of F AA’ s Implementat ion of the Title II Requirements (as of August 23, 2013)
                                                                                            14



EXHIBIT D. OIG WORK RELATED TO NEXTGEN PROGRAMS

Ongoing OIG Work

Audit Initiated      Audit Focus

January 23, 2013     FAA’s Information Security Controls of the Automatic Dependent
                     Surveillance-Broadcast System

October 18, 2012     FAA’s Surface Surveillance Programs for Runway Safety

July 19, 2012        Underlying Causes for FAA’s Limited NextGen Progress

May 14, 2012         FAA’s Automatic Dependent Surveillance-Broadcast Program

May 9, 2012          FAA Efforts to Streamline Processes for Implementing New Performance-
                     Based Flight Procedures



Previously Issued Reports and Testimonies

Date                    Report No.     Title

September 13, 2012      AV-2012-179 Weakness in Program and Contract Management
                                    Contribute to ERAM Delays and Put Other NextGen
                                    Initiatives at Risk

September 12, 2012      CC-2012-027 Update on FAA’s Progress and Challenges in Advancing
                                    the Next Generation Air Transportation System

August 1, 2012          AV-2012-167 Challenges With Implementing Near-Term NextGen
                                    Capabilities at Congested Airports Could Delay Benefits

April 23, 2012          AV-2012-094 Status of Transformational Programs and Risks to
                                    Achieving NextGen Goals

October 5, 2011         CC-2011-036 Federal Aviation Administration’s Progress and
                                    Challenges in Developing and Transitioning to the Next
                                    Generation Air Transportation System

August 4, 2011          AV-2011-149 FAA Oversight is Key for Contractor-Owned Air Traffic
                                    Control Systems That Are Not Certified

June 15, 2011           AV-2011-131 FAA’s Approach to SWIM Has Led to Cost and Schedule
                                    Uncertainty and No Clear Path for Achieving NextGen
                                    Goals

February 16, 2011       CC-2011-016 Actions Needed to Meet FAA’s Long-Term Goals for
                                    NextGen


OIG reports and testimonies are available on our Web site at http://www.oig.dot.gov.



Exhibit D. OIG Work Related to NextGen Programs
                                                           15



EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Barry DeWeese                           Program Director

Frank Danielski                         Project Manager

Craig Owens                             Senior Analyst

Claudia Estrada                         Analyst

Michael Broadus                         Analyst

Audre Azuolas                           Writer-Editor




Exhibit E. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                         16




                    Federal Aviation
                    Administration

Memorandum
Date:      December 19, 2013
To:        Jeffery B. Guzzetti, Assistant Inspector General for Aviation Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector General
           (OIG) Draft Report: FAA’s Progress in Implementing NextGen Provisions


As noted by the OIG, the Next Generation Air Transportation System (NextGen) is “the FAA’s
most complex modernization effort to date and will require multibillion-dollar investments from
both the Federal Government and airspace users to successfully implement.” The FAA fully
agrees and regards NextGen as a major transformation of the air traffic system on an
unparalleled scale. The FAA has made substantial progress toward the implementation of many
of the mandated FAA’s Modernization and Reform Act of 2012 (P.L. 112-95) provisions.
However, NextGen is a technically complex system-of-systems requiring collaboration with, and
investments by, private sector stakeholders, as well as other federal government agencies in
order to accomplish all of those requirements. The agency is working hard to obtain the
necessary stakeholder commitments to NextGen, without which full implementation will be
delayed.

RECOMMENDATIONS AND RESPONSES
Recommendation 1: Implement a process for regularly updating stakeholders on its progress
in meeting the act’s NextGen provisions, to include priorities, revised target action dates for
missed deadlines, and reasons for delays.

FAA Response: Concur. The FAA has multiple processes in place that provide regular updates
on the progress of NextGen to all stakeholders. The FAA publishes an annual update to the
NextGen Implementation Plan (NGIP) (http://www.faa.gov/nextgen/implementation/). This
document is intended to keep stakeholders informed about the progress of NextGen
implementation and benefits, as well as providing an overview of the agency’s NextGen
deployment plans for the next several years.

Discussions relating to the status of some of P.L. 112-95 provisions can be found in the narrative
chapters of the NGIP, while information relating to the status of, and plans for, the remainder of
statutory provisions can be found in the appendices. Appendix A deals specifically with the
equipage necessary for operators and airports to take advantage of NextGen capabilities, and


Appendix. Agency Comments
                                                                                                                    17


Appendix B provides graphical timelines for the implementation of NextGen capabilities
necessary to realize operational improvements, as well as an overview of the work activities in
which the agency plans to engage over the next several years in support of those deployments.
When there is a change from one year to the next in those timelines, or if the agency has simply
re-named a capability, the FAA documents the change in a footnote that identifies whether the
change was due to shifting agency priorities, budgetary constraints or technical/programmatic
issues.

The information published in the NGIP serves as the basis for the briefings and other outreach
products created and distributed by the agency to stakeholders at conferences, symposiums, and
other events across the country and around the world. Examples of these events include: the Air
Traffic Control Association (ATCA) Annual Convention; Radio Technical Commission for
Aeronautics (RTCA) Symposium; International Civil Aviation Organization (ICAO)
Symposium; ATCA/FAA/National Aeronautics and Space Administration Technical
Symposium; and the National Air Traffic Controllers Association (NATCA) conferences. FAA
Regional Administrators also meet with state-level officials to provide updates on local
activities.

Additionally, the FAA maintains a web-based tool for regularly updating stakeholders. The
NextGen Performance Snapshots (NPS) website (http://www.faa.gov/nextgen/snapshots/)
provides performance information at many locations where NextGen capabilities have been
deployed in accordance with a set of metrics agreed upon in concert with the aviation
community, along with narrative reports on user experience. The NPS is updated several times a
year, providing stakeholders with access to fresh information.

Finally, the FAA also provides programmatic information around NextGen implementation
policy issues to the RTCA’s NextGen Advisory Committee (NAC) 1, a group of senior officials
from government and the aviation community. The NAC includes a cross section of executives
from the FAA, airlines, airports, general aviation, pilots, air traffic controllers, the Department of
Defense, environmental interests, international interests and providers of air traffic control
technology. These aviation community leaders are then able to pass this information along
through their various organizations and constituencies.

The FAA believes that it has met the intent of the recommendation and requests that it be closed.

Recommendation 2: Communicate planned actions to Congress and other stakeholders to
address the challenges that the Agency faces in meeting the act’s provisions.

FAA Response: Concur. The FAA has a number of communication channels and mechanisms
already in place to keep Congress and other stakeholders informed of planned actions to
address the challenges of meeting the provisions of P.L. 112-95.
       1. The FAA Administrator and other senior Administration officials routinely participate
          in hearings of the House Committee on Transportation and Infrastructure and the
1
  The NextGen Advisory Committee (NAC), established September 23, 2010, is a 28-member Federal advisory committee
formed to provide advice on policy-level issues facing the aviation community in implementing NextGen
(http://www.rtca.org/content.asp?pl=33&sl=61&contentid=61)


Appendix. Agency Comments
                                                                                                                         18


            Senate Committee on Commerce, Science, and Transportation, and both the House
            and Senate Appropriations Committees, either directly on the topic of the agency
            progress on NextGen with respect to P.L. 112-95 provisions, or indirectly on NextGen
            and its challenges in response to the FY14 budget submission or sequestration or
            specific Member questions and inquiries. 2 The agency also responds in writing to
            specific questions that were not addressed during a particular Congressional
            proceeding as part of the hearing Questions for the Record (QFRs). Upon request,
            senior FAA officials also brief Congressional staff on a specific NextGen program or
            overall NextGen progress at frequent intervals.
       2. P.L. 112-95 requires the FAA to provide 60 different Reports to Congress within one
           or two years of enactment. Some of these are required to be provided annually
           thereafter. These reports serve as a medium to communicate to Congress and other
           stakeholders about NextGen. 3
       3. The NAC provides policy and technical advice directly to the FAA on issues and
          challenges associated with NextGen. The NAC is a collaborative partnership and
          communication forum that meets quarterly and allows the FAA to speak directly with
          our stakeholders on our progress and work together on overcoming common
          challenges. 4
       4. Every year, the agency publishes the NGIP, which is a roadmap of our ongoing
          transition to NextGen. Typically, the NGIP is published a month after the President’s
          budget submission to Congress each February. The NGIP helps to communicate both
          FAA’s progress and success stories for the past year and FAA’s future plans for the
          nationwide deployment of NextGen to Congress and stakeholders. It includes a
          description of current and expected future benefits to users of NextGen technologies.
          The NGIP is a public document available on the FAA website at
          http://www.faa.gov/nextgen/implementation/
       5. The NPS website was launched in 2012 and tracks NextGen performance metrics and
          serves as another outreach vehicle for updating the aviation community, Congress, the
          flying public and other stakeholders on NextGen progress. It is available at:
          http://www.faa.gov/nextgen/snapshots/
       6. The NextGen Institute 5 is a collaborative partnership between the FAA and the private
          sector that serves as a catalyst for fostering a shared vision of NextGen, combining
          the talents and resources of government, industry, and academia. The NextGen
          Institute holds at least one public meeting every year to allow interested parties to
          review the status of the Institute’s activities and provide comments. The public

2
  House Aviation Subcommittee, T&I hearings: Causes of Delays to the FAA's NextGen Program, July 17, 2013, Review of the
FAA's Progress in Implementing the FAA Modernization and Reform Act, May 16, 2013, Implementation of the FAA
Reauthorization and Reform Act: One Year Later, February 27, 2013; House Transportation, Housing and Urban Development,
and Related Agencies Appropriations Subcommittee: Budget Hearing – FAA, April 24, 2013, Budget Hearing – DOT, April 16,
2013; Senate Committee on Appropriations: FY14 FAA Budget Hearing, April 18, 2013.
3
  Reports to Congress are available publicly on the FAA website at
http://www.faa.govhttp://www.faa.gov/about/office_org/headquarters_offices/agi/reports/.
4
  NAC documents and meeting materials are available publicly at http://www.rtca.org/content.asp?pl=33&sl=61&contentid=61.
5
  The NextGen Institute was established for FAA and its partners to work together on the definition, goals, development, and
implementation of NextGen, enabling the Joint Planning and Development Office (JPDO) to access world-class expertise, tools,
and facilities for application to NextGen activities and tasks.


Appendix. Agency Comments
                                                                                                                     19


           meeting is announced on the Institute website (http://www.nginstitute.org/) and
           provides another forum for the FAA to inform Congress and its stakeholders about the
           progress of NextGen, in an effort to foster collaborative discussions and endeavors to
           overcome challenges.
       7. The FAA Administrator and other senior Administration officials routinely participate
          in hearings of the House Committee on Transportation and Infrastructure and the
          Senate Committee on Commerce, Science, and Transportation, and both the House
          and Senate Appropriations Committees, either directly on the topic of the agency
          progress on NextGen with respect to P.L. 112-95 provisions, or indirectly on NextGen
          and its challenges in response to the FY14 budget submission or sequestration or
          specific Member questions and inquiries. 6 The agency also responds in writing to
          specific questions that were not addressed during a particular Congressional
          proceeding as part of the hearing Questions for the Record (QFRs). Upon request,
          senior FAA officials also brief Congressional staff on a specific NextGen program or
          overall NextGen progress at frequent intervals.
       8. P.L. 112-95 requires the FAA to provide 60 different Reports to Congress within one
           or two years of enactment. Some of these are required to be provided annually
           thereafter. These reports serve as a medium to communicate to Congress and other
           stakeholders about NextGen. 7
       9. Each year, the FAA participates in several industry conferences and forums, such as
          the ATCA Conference and the RTCA Symposium, which provides attendees and
          others with information on NextGen.

Based on the multiple communication opportunities described above, the FAA believes it has
met the intent of this recommendation and requests that it be closed.




6
  House Aviation Subcommittee, T&I hearings: Causes of Delays to the FAA's NextGen Program, July 17, 2013, Review of the
FAA's Progress in Implementing the FAA Modernization and Reform Act, May 16, 2013, Implementation of the FAA
Reauthorization and Reform Act: One Year Later, February 27, 2013; House Transportation, Housing and Urban Development,
and Related Agencies Appropriations Subcommittee: Budget Hearing – FAA, April 24, 2013, Budget Hearing – DOT, April 16,
2013; Senate Committee on Appropriations: FY14 FAA Budget Hearing, April 18, 2013.
7
  Reports to Congress are available publicly on the FAA website at
http://www.faa.govhttp://www.faa.gov/about/office_org/headquarters_offices/agi/reports/.


Appendix. Agency Comments
